             DEPARTMENT OF HEALTH
             DEPARTMENT    HEALTH && HUMAN SERVICES
                                     HUMN SERVICES                                             OFFCE
                                                                                               OFFICEOF
                                                                                                      OFINSPECTOR
                                                                                                         INSPECTOR GENERAL
                                                                                                                   GENERAL

(7t
~,~~\.                                                                                          Officeof
                                                                                                Offce
                                                                                                Public
                                                                                                       of Audit
                                                                                                          Audit Services,
                                                                                                Public Leger
                                                                                                150 S.
                                                                                                        LedgerBuilding,
                                                                                                                          RegionIII

                                                                                                                Servce, Region
                                                                                                               Building,Suite
                                                                                                     S. Independence
                                                                                                        Independence Mall
                                                                                                                         Suite316
                                                                                                                      Mal West
                                                                                                                          West
                                                                                                                                 III
                                                                                                                               316

                                                                                                Philadelphia,
                                                                                                Philadelphia,PA
                                                                                                              P A19106-3499
                                                                                                                  19106-3499

                                                        NOV i1222008

                                                        NOV      2008 


         Report Number: A-03-07-00014
                Number: A-03-07-00014

         Mr. Jame
         Mr. Jamie Bylotas
                    Bylotas
                             Performance Management
                           & Performance
         Director, Quality &
         Highmark Medicare Services
         1800 Center Street
         Camp Hill, Pennsylvania   17089
                     Pennsylvana 17089

         Dear Mr. Bylotas:

         Enclosed is
         Enclosed        is the
                             theU.S.
                                   U.S.Department
                                            Deparent ofofHealth Healthand
                                                                        andHuman
                                                                            HumanServices
                                                                                     Services (HHS), Office
                                                                                                      Office of
                                                                                                             ofInspector
                                                                                                                 Inspector
         General
         General (OIG),(DIG),     final
                        final report       report
                                     entitled "Review entitled
                                                      of        "Review of High-Dollar
                                                                             High-Dollar Payments
                                                                                           Payments for
                                                                                                    for Maryland
                                                                                                         Marland andand Distrct

                                                                                                                         District    

         of Columbia Medicare Medicare HospitalHospital Outpatient
                                                            OutpatientClaims    Processedby
                                                                         Clais Processed    byHighmark
                                                                                               Highmark Medicare
                                                                                                         Medicare Services
                                                                                                                     Services
         for the Period
                     Period October
                                October 11 ThroughThough December 31,         2005. " We
                                                                          31, 2005."   We will
                                                                                           wil forward a copy
                                                                                                          copy of
                                                                                                                of this
                                                                                                                   ths report to
         the HHS action official               noted on
                                   official noted        on the
                                                             the following
                                                                 followingpage
                                                                            page for
                                                                                  forreview
                                                                                      reviewand
                                                                                             andany
                                                                                                 any action
                                                                                                     action deemed
                                                                                                            deemed necessary.
                                                                                                                       necessar.

         The HHS action official will              make final
                                             wil make    final determnation
                                                               determinationasastotoactions
                                                                                     actions taken
                                                                                              taken on
                                                                                                     on all
                                                                                                         all matters
                                                                                                             matters reported.
                                                                                                                      reported.
         We request          that   you  respond  to this official within 30 days   from  the  date
                request that you respond to ths official withn days from the date of ths letter.    of this  letter. Your
         response
         response should should      present any·
                          present any.       any·comments
                                                  comments or additional information that you believe may have a
         bearing on the
         bearng             the final   determination.
                                  final determnation.

         Pursuant to the principles of the Freedom of Information
                                                           Information Act,
                                                                       Act, 55 U.S.c.
                                                                               U.S.c. § 552, as amended by
         Public Law 104-231, OIGDIG reports generally are made available to the public to the extent the
         information
         information is
                      is not
                         not subject
                             súbject to
                                      to exemptions
                                         exemptionsininthetheAct
                                                              Act(45
                                                                  (45CFR
                                                                      CFRpart
                                                                            par5).
                                                                                5). Accordingly,
                                                                                    Accordingly, this
                                                                                                  ths report
         will be posted  on the Internet  at http://oig.hhs.gov.
         wil be posted on the Internet at http://oig.hhs.gov.

         If you have any questions
                         questions or comments
                                      comments about
                                                 about this
                                                         ths report, please do not hesitate to call me at
         (215) 861-4470, or
         (215) 861-4470,  or contact
                             contact Bernard
                                     Bernard Siegel,
                                             Siegel, Audit
                                                     Audit Manager,
                                                             Manager, atat (215)
                                                                           (215) 861-4484
                                                                                 861-4484 or
                                                                                           or through
                                                                                              through e-mail
                                                                                                       e-mail
         at
         at Bernard.Siegel@oig.hhs.gov.   Please refer
            Bernard.Siegel(goig.hhs.gov. Please  refer to
                                                        to report
                                                           report number
                                                                  number A-03-07-00014
                                                                            A-03-07-00014 inin all
         correspondence.

                                                                Sincerely,


                                                               )-kL ~
                                                               )~L~
                                                                Stephen Virbitsky
                                                                Stephen Virbitsky
                                                                Regional Inspector General
                                                                Regional
                                                                  for Audit
                                                                  for Audit Services


         Enclosure
         Enclosure
Page 22 -- Mr. Jamie
               Jame Bylotas
                     Bylotas


Direct Reply to HHS
                HHS Action
                    Action Official:
                           Offcial:

        Foster Reilly,
Nanette Foster Reily, Consortum
                       Consortium Administrator
                                  Administrator
Consortum for
Consortium  forFinancial
               Financial Management
                          Management & & Fee
                                         Fee for
                                             for Service
                                                 Service Operations
Centers for Medicare & & Medicaid Services
         12th Street,
601 East 12th Street, Room
                      Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   REVIEW OF HIGH-DOLLAR 

 PAYMENTS FOR MARYLAND AND 

    DISTRICT OF COLUMBIA 

MEDICARE HOSPITAL OUTPATIENT 

CLAIMS PROCESSED BY HIGHMARK 

  MEDICARE SERVICES FOR THE 

  PERIOD OCTOBER 1 THROUGH

      DECEMBER 31, 2005 





                    Daniel R. Levinson

                     Inspector General 


                      November 2008

                      A-03-07-00014

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted by
hospital outpatient departments. CMS guidance requires providers to bill accurately and to
report units of service as the number of times that a service or procedure was performed.

Fiscal intermediaries currently use the Fiscal Intermediary Standard System and CMS’s
Common Working File to process hospital outpatient claims. These systems can detect certain
improper payments during prepayment validation.

Prior to October 1, 2005, CareFirst of Maryland was the Medicare fiscal intermediary for
Maryland and the District of Columbia. On October 1, 2005, Highmark Medicare Services
(Highmark) assumed the fiscal intermediary operations for Maryland and the District of
Columbia. During the period October 1 through December 31, 2005, Highmark processed over
600,000 outpatient claims, 5 of which resulted in payments of $50,000 or more (high-dollar
payments).

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that Highmark made to
hospitals for outpatient services as the fiscal intermediary for Maryland and the District of
Columbia were appropriate.

SUMMARY OF FINDING

Highmark overpaid $53,524 for the five high-dollar payments it made for hospital outpatient
claims in Maryland and the District of Columbia. One hospital refunded one overpayment
totaling $49,789 prior to our audit. As a result of discussions during the audit, two hospitals
refunded two overpayments totaling $674; however, one hospital had not refunded two
overpayments totaling $3,061.

Highmark made the overpayments because three hospitals incorrectly claimed the wrong service
or incorrect units of service on five claims. In addition, neither the Fiscal Intermediary Standard
System nor the Common Working File had sufficient edits in place during the audit period to
detect and prevent payments for these types of erroneous claims.

RECOMMENDATION

We recommend that Highmark recover the $3,061 in identified overpayments for high-dollar
claims.




                                                 i
HIGHMARK MEDICARE SERVICES COMMENTS

In comments on our draft report (Appendix), Highmark stated that it concurred with our
recommendation and initiated activity recover the $3,061 in identified overpayments.
Highmark’s comments are included as the appendix.




                                              ii
                                                 TABLE OF CONTENTS 



                                                                                                                                   Page


INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1 

              Medicare Fiscal Intermediaries..............................................................................1                       

              Claims for Outpatient Services ..............................................................................1                      

              Highmark Medicare Services.................................................................................1                        


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................2 

               Objective ...............................................................................................................2         

               Scope......................................................................................................................2       

               Methodology ..........................................................................................................2            


FINDINGS AND RECOMMENDATIONS ..............................................................................3 


          MEDICARE REQUIREMENTS.......................................................................................3                       


          INAPPROPRIATE HIGH-DOLLAR PAYMENTS .........................................................3 


          INSUFFICIENT PREPAYMENT OR POSTPAYMENT CONTROLS ..........................4 


          FISCAL INTERMEDIARY PREPAYMENT EDIT.........................................................4 


          RECOMMENDATION .....................................................................................................4                   


          HIGHMARK MEDICARE SERVICES COMMENTS ....................................................4 


APPENDIX

          HIGHMARK MEDICARE SERVICES COMMENTS




                                                                   iii
                                             INTRODUCTION 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted
by hospital outpatient departments (hospital) among other things. Fiscal intermediaries’
responsibilities include determining reimbursement amounts, conducting reviews and audits, and
safeguarding against fraud and abuse. Federal guidance provides that intermediaries must
maintain adequate internal controls over automatic data processing systems to prevent increased
program costs and erroneous or delayed payments.

To process hospital outpatient claims, fiscal intermediaries use the Fiscal Intermediary Standard
System and CMS’s Common Working File. These systems can detect certain improper
payments during prepayment validation.

During calendar years (CY) 2003–05, fiscal intermediaries processed and paid approximately
409 million outpatient claims, 1,243 of which resulted in payments of $50,000 or more (high-
dollar payments). We consider such claims to be at high risk for overpayment.

Claims for Outpatient Services

Hospitals submit bills to fiscal intermediaries for outpatient services identifying each service by
type and number of units of service performed on a separate line of the claim. Fiscal
intermediaries calculate a payment for each service based on the individual line billed. Medicare
guidance requires hospitals to submit accurate claims for outpatient services. Hospitals should
use the appropriate Healthcare Common Procedure Coding System (HCPCS) codes and report
units of service as the number of times that a service or procedure was performed.

Highmark Medicare Services

Prior to October 1, 2005, CareFirst of Maryland was the Medicare fiscal intermediary for
Maryland and the District of Columbia. On October 1, 2005, Highmark Medicare Services
(Highmark) assumed the fiscal intermediary operations for Maryland and the District of
Columbia 1 During the period October 1 through December 31, 2005, Highmark processed over
600,000 outpatient claims, 5 of which were high-dollar payments.

1
 Our report, “Review of High-Dollar Payments for Maryland and the District of Columbia Medicare Outpatient
Claims Processed by CareFirst of Maryland for the Period January 1, 2003, Through September 30, 2005,”
(A-03-07-00012), will include claims processed and paid by CareFirst of Maryland as the fiscal intermediary for
Maryland and the District of Columbia from January 1, 2003, through September 30, 2005.



                                                        1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that Highmark made to
hospitals for outpatient services as the fiscal intermediary for Maryland and the District of
Columbia were appropriate.

Scope

We reviewed the five high-dollar payments for hospital outpatient claims totaling $358,355 that
Highmark processed from October 1 through December 31, 2005. We limited our review of
Highmark’s internal controls to those applicable to the five claims because our objective did not
require an understanding of all internal controls over the submission and processing of claims.
Our review allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from the National Claims History file, but we did not assess the completeness of
the file.

We conducted our audit from March through July 2008.

Methodology

To accomplish our objectives, we:

   •	 reviewed applicable Medicare laws and regulations;

   •	 used CMS’s National Claims History file to identify Medicare Part B hospital outpatient
      claims with high-dollar payments;

   •	 reviewed available Common Working File data for claims with high-dollar payments to
      determine whether the claims had been canceled and superseded by revised claims or
      whether the payments remained outstanding at the time of our audit;

   •	 contacted the hospitals that received the high-dollar payments to determine whether
      the information on the claims was correct and, if not, why the claims were incorrect and
      whether the hospitals agreed that refunds were appropriate;

   •	 analyzed Common Working File data for canceled claims for which revised claims had
      been submitted to determine whether the initial claims were overpayments; and

   •	 validated with Highmark that overpayments occurred and refunds were appropriate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



                                                2

based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

Highmark overpaid $53,524 for the five high-dollar payments it made for hospital outpatient
claims in Maryland and the District of Columbia. One hospital refunded one overpayment
totaling $49,789 prior to our audit. As a result of discussions during the audit, two hospitals
refunded two overpayments totaling $674; however, one hospital had not refunded two
overpayments totaling $3,061.

Highmark made the overpayments because three hospitals incorrectly claimed the wrong service
or incorrect units of service on five claims. In addition, neither the Fiscal Intermediary Standard
System nor the Common Working File had sufficient edits in place during the audit period to
detect and prevent payments for these types of erroneous claims.

MEDICARE REQUIREMENTS

Section 9343 of the Omnibus Budget Reconciliation Act of 1986, P. L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. The CMS “Medicare
Claims Processing Manual,” Pub. No. 100-04, chapter 4, § 20.4, states: “The definition of
service units . . . is the number of times the service or procedure being reported was performed.”
Chapter 1, § 80.3.2.2 of the manual states: “In order to be processed correctly and promptly, a
bill must be completed accurately.”

Section 3700 of the “Medicare Intermediary Manual,” states that “It is essential that you [the
fiscal intermediary] maintain adequate internal controls over Title XVIII [Medicare] automatic
data processing systems to preclude increased program costs and erroneous and/or delayed
payments.”

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Highmark overpaid hospitals $53,524 for five payments. For the five overpayments, three
hospitals incorrectly billed Highmark for the wrong service or incorrect units of service. One
hospital refunded one overpayment totaling $49,789 prior to our audit. As a result of discussions
during the audit, two hospitals refunded two overpayments totaling $674; however, one hospital
had not refunded two overpayments totaling $3,061.

   •	 One hospital billed for a total of 1,000 units of bevacizumab, a chemotherapy drug,
      instead of 100 units. As a result, Highmark paid $55,321 when it should have paid
      $5,532, an overpayment of $49,789. The hospital refunded the overpayment prior to our
      audit.

   •	 One hospital billed for excessive units of service on three claims.




                                                 3

             o	 For one claim the hospital billed for non-chemotherapy infusions instead of
                chemotherapy intravenous injections and for incorrect units of service for the
                injections. As a result, Highmark paid $38,634 instead of $36,037, an
                overpayment of $2,597.

             o	 For one claim the hospital billed for non-chemotherapy infusions instead of
                chemotherapy intravenous injections and for incorrect units of service for the
                injections. As a result, Highmark paid $34,830 when it should have paid $34,366,
                an overpayment of $464.

             o	 For one claim the hospital billed 17 units for pharmacy items instead of 8 units.
                As a result, Highmark paid $17 when it should have paid $6, an overpayment of
                $11. The hospital refunded the overpayment as result of our audit.

    •	 One provider billed for a total of 12 units of chemotherapy administration infusion
       instead of 3 units. As a result, Highmark paid $1,205 when it should have paid $542, an
       overpayment of $663. The hospital refunded the overpayment as result of our audit.

INSUFFICIENT PREPAYMENT OR POSTPAYMENT CONTROLS

During our audit period, Highmark did not have prepayment or postpayment controls to identify
aberrant payments at the claim level, and the Common Working File lacked prepayment edits to
detect and prevent excessive payments. In effect, CMS relied on hospitals to notify the fiscal
intermediaries of excessive payments and on beneficiaries to review their “Medicare Summary
Notice” and disclose any overpayments. 2

FISCAL INTERMEDIARY PREPAYMENT EDIT

On January 3, 2006, after our audit period, CMS required intermediaries to implement a Fiscal
Intermediary Standard System edit to suspend potentially excessive Medicare payments for
prepayment review. The edit suspends high-dollar outpatient claims and requires intermediaries
to determine the legitimacy of the claims.

RECOMMENDATION

We recommend that Highmark recover the $3,061 in identified overpayments for high-dollar
claims.

HIGHMARK MEDICARE SERVICES COMMENTS

In comments on our draft report Highmark stated that it concurred with our recommendation and
initiated activity recover the $3,061 in identified overpayments. Highmark’s comments are
included as the appendix.

2
 The fiscal intermediary sends a “Medicare Summary Notice” notice to the beneficiary after the hospital file a claim
for outpatient services. The notice explains the services provided, the amount charged, and the amount that may be
billed to the beneficiary.


                                                         4

APPENDIX 

APPENDIX
 Page 1 of 2 

APPENDIX
 Page 2 of 2 

